No. 20-5117

Supreme Court ot the Guited States

JEREMIAH (“JENNA”) RODGERS, PETITIONER,
ve

STATE OF FLORIDA, RESPONDENT.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE FLORIDA SUPREME COURT

CERTIFICATE OF SERVICE

I, Carolyn Snurkowski, a member of the Bar of this Court, hereby certify that on
this 19th day of August, 2020, a copy of the Respondent’s Brief in Opposition was
furnished by United States mail and by email to LINDA MCDERMOTT, Capital
Habeas Unit of the Office of the Federal Public Defender of the Northern District of
Florida, 227 N. Bronough Street, Suite 4200, Tallahassee, FL 33301; phone: (850)
322-2172; email: linda_mcdermott@fd.org.

r, Cf

i> pa cC—
Carolyn M. Snurkowski

Associate Deputy Attorney General
Counsel of Record

OFFICE OF THE ATTORNEY GENERAL
CAPITAL APPEALS

PL-01, THE CAPITOL
TALLAHASSEE, FL 32399-1050
(850) 414-3584

(850) 487-0997 (FAX)

COUNSEL FOR RESPONDENT
